         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report


       Performance Track Could
       Improve Program Design and
       Management to Ensure Value
       Report No. 2007-P-00013

       March 29, 2007
Report Contributors:	            Jerri Dorsey
                                 Gabrielle Fekete
                                 Elizabeth Grossman
                                 Jeffrey Harris
                                 Kathlene Butler Martini




Abbreviations

APG          Annual Performance Goal
APR          Annual Performance Report
CAA          Clean Air Act
CR           Compliance Ratio
CWA          Clean Water Act
ECHO         Enforcement and Compliance History Online
EMS          Environmental Management System
EPA          U.S. Environmental Protection Agency
FTE          Full Time Equivalent
GPRA         Government Performance and Results Act
MACT         Maximum Achievable Control Technology
MMBTU        Million Metric British Thermal Units
NAICS        North American Industrial Classification System
NOV          Notice of Violation
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of the Inspector General
OMB          Office of Management and Budget
OPEI         Office of Policy, Economics, and Innovation
OTIS         Online Tracking Information System
PART         Program Assessment Rating Tool
RCRA         Resource Conservation and Recovery Act
SNC          Significant Noncompliance
SV           Significant Violation
TRI          Toxics Release Inventory
VOC          Volatile Organic Compound
                       U.S. Environmental Protection Agency                                          2007-P-00013

                                                                                                    March 29, 2007

                       Office of Inspector General


                       At a Glance

                                                                         Catalyst for Improving the Environment


Why We Did This Review           Performance Track Could Improve Program
We initiated this review to
                                 Design and Management to Ensure Value
evaluate how the U.S.
Environmental Protection          What We Found
Agency’s (EPA’s) National
Environmental Performance        We found that Performance Track did not have clear plans that connected
Track program (Performance       activities with its goals, and did not have performance measures that show if it
Track) achieves EPA goals.       achieves anticipated results. The program tied an EPA goal to member
We specifically sought to        commitments, and did not meet the goal because members did not make sufficient
determine how Performance        progress toward their commitments. These implementation challenges detracted
Track contributes to achieving   from EPA’s anticipated results (only 2 of 30 sampled Performance Track members
environmental goals, how well    met all of their environmental improvement commitments). In addition, members
it recognizes and encourages     did not have access to some program benefits.
environmental leadership, and
how the program tracks           In assessing members’ leadership using independent criteria, we found that most
member performance.              Performance Track members’ compliance and toxic release records were better
                                 than average, but some were not. Although most members showed leadership and
Background                       environmental progress, the presence of underperforming facilities in this
                                 leadership program reduces the integrity and value of the brand.
Performance Track is a public-
private partnership that          What We Recommend
encourages member facilities
to improve the environment       We recommend that EPA design a comprehensive strategic plan to connect
through using environmental      activities with goals and to encourage staff and management to focus on program
management systems, local        goals and member commitments. We recommend that the program measure and
public outreach, and public      report on performance related to activities and goals. EPA should also maintain
reporting for results. EPA       centralized databases for compliance screening and program member information
designed Performance Track       so that it can readily demonstrate that members meet program criteria. We
to recognize and encourage       recommend that EPA encourage member facilities to set and achieve
facilities that demonstrate      commitments so that the public has a clear idea of what results members will
strong environmental             actually produce. We also recommend that EPA include assessing member
performance beyond current       leadership in compliance and toxic releases in the program criteria. EPA can use
requirements.                    these data to track members’ progress, define top performance, and establish and
                                 modify criteria and performance measures.
For further information,
contact our Office of
Congressional and Public         In its response, EPA disagreed with how the program should be evaluated and the
Liaison at (202) 566-2391.       extent to which it has succeeded, to date. However, EPA agreed with all of our
                                 recommendations for improvement. They also suggested technical corrections.
To view the full report,         We made changes as appropriate. Appendix A provides EPA’s response to the
click on the following link:
www.epa.gov/oig/reports/2007/
                                 draft report and our comments.
20070329-2007-P-00013.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 29, 2007

MEMORANDUM

SUBJECT:               Performance Track Could Improve Program Design and
                       Management to Ensure Value
                       Report No. 2007-P-00013


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Brian Mannix
                       Associate Administrator, Office of Policy, Economics, and Innovation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $228,571.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig .

If you or your staff has any questions, please contact me at (202) 566-0832 or
najjum.wade@epa.gov; or Jeffrey Harris, Product Line Director, at (202) 566-0831 or
harris.jeffrey@epa.gov.
             Performance Track Could Improve Program Design and Management
                                      to Ensure Value


                                Table of Contents 

Chapters
 1    I	ntroduction ...........................................................................................................     1     


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1

              Scope and Methodology.................................................................................                2

              Prior Reviews .................................................................................................       3


 2	   Performance Track Created to Recognize Top Environmental Performers ....                                                      4     


              Performance Track Design.............................................................................                 4

              Performance Track Implementation ..............................................................                       6

              Performance Track Membership ....................................................................                     7

              Program Performance Measurement and Reporting......................................                                   9

              Summary ........................................................................................................     10         


 3	   Performance Track Design Not Clearly Linked to Intended Outcomes ...........                                                 11     


              Program Does Not Clearly Link Mission, Vision, Goals and Measures .........                                          11 

              Conclusion......................................................................................................     13         

              Recommendations .........................................................................................            14         

              Agency Response and OIG Evaluation ..........................................................                        14 


 4	   Performance Track Does Not Generally Fulfill its Value Proposition ..............                                            15     


              Not All Members Met Criteria or Achieved Environmental Results ................                                      15 

              Program Has Achieved Less Than Half of GPRA Targets .............................                                    19 

              Members Lack Access to Some Incentives....................................................                           21 

              Conclusion......................................................................................................     21         

              Recommendations .........................................................................................            22         

              Agency Response and OIG Evaluation ..........................................................                        22 


 5	   Some Members Exceed Sector Average for Noncompliance 

      and Toxic Releases ..............................................................................................            23 


              Program Equates Membership with Leadership.............................................                              23 

              Most Members Are Top Performers ...............................................................                      24 

              Some Facilities Had More Compliance Problems than Their Peers...............                                         24 

              Some Facilities Released More Toxic Chemicals than Their Peers...............                                        25 

              Summary ........................................................................................................     25         

              Conclusions ....................................................................................................     26         

              Recommendations .........................................................................................            27         

              Agency Response and OIG Evaluation ..........................................................                        27 


 Status of Recommendations and Potential Monetary Benefits.................................                                        28     

            Performance Track Could Improve Program Design and Management
                                     to Ensure Value



Appendices
 A   Agency Response and OIG Evaluation ...............................................................                          29


 B   Detailed Scope and Methodology........................................................................                      39


 C   Performance Track Criteria ..................................................................................               44


 D   Incentives and Rewards to Participation ............................................................                        45     


 E   Performance Track Commitments.......................................................................                        46     


 F   Detailed Program Logic Model.............................................................................                   48     


 G   Data Analysis Results: Charts .............................................................................                 49     


     Figure G.1: Commitment achievement for Performance Track (PT) facilities .........                                          49 

     Figure G.2: Commitments achieved at cycle completion for PT facilities................                                      49 

     Figure G.3: Change in materials use for PT facilities .............................................                         50 

     Figure G.4: Comparative compliance for sample facilities that did not 

                 outperform their sectors ......................................................................                 50


 H   Distribution ............................................................................................................   51     

                                Chapter 1
                                Introduction
Purpose
          As part of a U.S. Environmental Protection Agency (EPA) Office of Inspector
          General (OIG) evaluation agenda to assess a new approach to environmental
          protection, we initiated this review to evaluate how effectively Performance Track
          achieves its environmental goals. Specifically, we sought to determine:

          1.	    How does Performance Track contribute to achieving EPA’s goal:
                 Improve environmental performance through pollution prevention and
                 innovation?

          2.	    How well does Performance Track accomplish its program goal: To
                 recognize and encourage top environmental performers, and track
                 program performance?

Background
          Over the last few years, the EPA has worked to develop new types of
          environmental solutions. EPA initiated Performance Track in 2000 as part of a
          “reinvention” effort in the Agency designed to develop new methods for
          achieving environmental and public health protection goals. Performance Track
          recognizes top environmental performance among participating U.S. facilities,
          both public and private.

          EPA’s assumption for reinvention programs was that environmental protection
          initiatives that promoted both stewardship and compliance with environmental
          requirements would have the greatest potential for solving environmental
          problems. In a 1999 document outlining the concept of a performance track, EPA
          explained this concept:

                 It’s helpful to think of…a bell curve along a performance
                 spectrum. At one end, we have companies acting as environmental
                 leaders, adding business value and gaining competitive advantages
                 along the way; they are setting standards of excellence that will
                 define future business practices for themselves and their peers. In
                 the middle, we have the “main streamers”—businesses, industries,
                 and other regulated parties that typically meet requirements, but




                                          1

                         do little else. And then there are those that have been left behind,
                         who do not meet the most basic environmental standards.1

                 In this document, EPA described a performance track as a method for rewarding
                 those facilities that were environmental leaders, or “top performers.” EPA
                 assumed that bench-marking leaders’ practices would guide others to make
                 improvements. That is, EPA expected that a program that identified, encouraged,
                 and rewarded top performers would have a ripple effect as nonmembers emulated
                 members, fostering overall benefits that exceed member achievements.
                 Moreover, the Agency anticipated that recognizing facilities as leaders would
                 encourage them to perform beyond compliance, continuously improving their
                 environmental results. EPA anticipated that rewarding continuous improvement
                 could improve the relationship between EPA and the regulated community
                 leading to innovation, changes in EPA’s methods for protecting the environment,
                 and results.

                 EPA highlights Performance Track as a model for partnership programs, referring
                 to it as the “gold standard” among its partnership programs. For example, in its
                 2006 National Program Guidance, EPA describes Performance Track as its
                 “flagship innovation program for recognizing and rewarding top-performing
                 facilities that consistently exceed regulatory requirements, address unregulated
                 environmental issues, and produce measurable environmental results.”

Scope and Methodology
                 This review assesses the performance of the Performance Track program on the
                 basis of two fundamental program goals where data are available and results have
                 been reported. The first comes from EPA’s Fiscal Year 2005 Strategic Plan:
                 Improve environmental performance through pollution prevention and
                 innovation. 2 The second, from the July 2000 Federal Register notice starting the
                 program, defined the objective of Performance Track as, To recognize and
                 encourage top environmental performers, those who go beyond compliance with
                 regulatory requirements to attain levels of environmental performance and
                 management that benefit people, communities, and the environment.3 This review
                 does not attempt to evaluate the validity of EPA’s concept described above in part
                 because the Agency has yet to report on many of the anticipated benefits of the
                 concept behind Performance Track. For example the Agency does not report on
                 the ripple effect on nonmembers, any change in relationships between the Agency
                 and the regulated community, or innovation stemming from continuous
                 improvement.

1
  U. S. Environmental Protection Agency, Office of the Administrator, Aiming for Excellence, EPA100-R-99-006, 

1999, p.5. 

2
  U. S. Environmental Protection Agency, Fiscal Year 2005 Environmental and Financial Progress Report, 2005, 

EPA190-R-05-001. Strategic Objective 5.2, Annual Performance Goal 5.4, p. 156. 

3
  Program Description of National Environmental Achievement Track, Federal Register: July 6, 2000 (Volume 65,

Number 30), pp. 41655-41663. 



                                                       2

                To determine how Performance Track contributed to EPA’s goals, we
                reviewed Performance Track background, program management
                documents, and applicable EPA budget and performance documents. We
                reviewed applicable Performance Track policies, procedures, and practices,
                and discussed them with program management. We developed a program
                logic model with input from Performance Track representatives. We also
                analyzed EPA’s 2001-2005 reports on program members’ progress. We
                supplemented our analysis by meeting with Headquarters and regional EPA
                personnel, and external stakeholders, including program members,
                nonmembers, and former members. We examined management controls as
                they related to our objectives.

                We analyzed a randomly selected sample of 40 member facilities to determine if
                they met their Performance Track commitments, and how much progress they
                made. In order to demonstrate if these facilities represented “top performers,” we
                compared the sample facilities’ compliance records and toxic releases with those
                of their sectors. We compiled compliance information from EPA databases and
                verified individual facility data for sample members with regional EPA
                enforcement and compliance data stewards.

                We performed our evaluation in accordance with Government Auditing
                Standards, issued by the Comptroller General of the United States. We
                performed our field work from August 2006 through November 2006.

                Appendix B includes additional details about our scope and methodology.

Prior Reviews
                Performance Track has not been evaluated by EPA OIG or the Government
                Accountability Office. Nor has Performance Track received an Office of
                Management and Budget Program Assessment Rating Tool review. In 2006,
                Harvard University completed an EPA-funded assessment of Performance Track
                membership, cited herein as Coglianese and Nash. The study answered the
                question: why do businesses join Performance Track?4 They found that members
                have a distinct tendency to value external recognition, and that EPA accepted
                members with better environmental records than applicants that they rejected.
                However, Coglianese and Nash also determined that the prospect of Performance
                Track membership did not necessarily motivate facilities to improve their
                environmental performance, nor did the study find that the members’
                environmental performance exceeded comparable facilities that did not apply for
                membership.

4
 Coglianese, Cary and Jennifer Nash. Beyond Compliance: Business Decision Making and the U.S. EPA’s
Performance Track Program. Regulatory Policy Program Report RPP-10, 2006. Cambridge, MA: Mossavar-
Rahmani Center for Business and Government, John F. Kennedy School of Government, Harvard University,
pp. 5-8.


                                                    3

                                            Chapter 2
              Performance Track Created to Recognize
                   Top Environmental Performers
                 EPA created Performance Track to attempt a new model for achieving
                 environmental protection goals.5 EPA wanted Performance Track to foster broad-
                 based outcomes like innovation, improved methods for environmental protection,
                 and results beyond compliance. 6 EPA would achieve the benefits of the program
                 by recognizing and encouraging top environmental performers. EPA defined top
                 performers as those that used Environmental Management Systems (EMSs) 7,
                 were involved in their communities, complied with environmental statutes, and to
                 continuous environmental improvement.

Performance Track Design
                 EPA designed Performance Track as a public-private partnership. EPA
                 established four membership criteria by which they accept facilities into the
                 program and thereby define environmental leadership, or “top environmental
                 performers”: (1) use of an EMS,
                 (2) public outreach, (3) sustained     Figure 2.1. Performance Track Criteria
                 regulatory compliance, and (4)
                 evidence of continued
                 environmental improvement (see                   1.                   2.
                 Figure 2.1). Performance Track             Environmental      Public  Outreach
                 staff stress that these four elements      Management
                                                            System (EMS)
                 serve not only as the criteria for
                 membership in Performance Track
                 but also as the program’s definition
                 for “leadership.”                                3.                   4.
                                                                        Regulatory            Commitment to
                 According to EPA, the program              Compliance             Continuous
                 criteria identify facilities that meet                          Environmental
                 high standards of performance in                                 Improvement
                 both regulated (compliance) and
                 unregulated (beyond compliance)        Source: Performance Track Website.
                 areas. Appendix C provides details
                 on how Performance Track applies these criteria to assess applications.



5
  www.epa.gov/performancetrack . 

6
  According to EPA, environmental performance beyond compliance includes activities that reduce impacts below

levels permitted by regulations as well as activities unrelated to regulations. 

7
  An EMS is a set of processes and practices that enables an organization to reduce its environmental impacts and 

increase its operating efficiency. 



                                                         4

                  Value Proposition

                  In designing a partnership program, EPA’s Office of Partnership Programs
                  recommends that EPA offer incentives to members in exchange for the required
                  environmental commitments. EPA describes this as the “value proposition.” 8
                  Figure 2.2 describes the Performance Track value proposition: members achieve
                  environmental results that benefit the public; in return, Performance Track offers
                  regulatory and administrative incentives to members.

                  Figure 2.2. Performance Track Value Proposition


                   Members pledge environmental                       In return, members receive incentives
                   performance:                                       and rewards: 9

                   •    Meet established compliance and               •   Recognition from EPA as
                        EMS criteria.                                     environmental stewards.
                   •    Public outreach, including identifying        •   Networking opportunities.
                        and responding to community                   •   Low priority for routine inspections.
                        concerns, and informing the                   •   Green investment opportunities.
                        community about environmental                 •   Extended hazardous waste
                        performance.                                      accumulation time (RCRA 180 Day
                   •    Select 2-4 areas for environmental                Incentive).
                        improvement from a list of beyond             •   Reduced reporting frequency for air
                        compliance activities and make 3-year             sources (MACT Reporting Incentive).
                        public commitments for improvement.
                   •    Report on their annual progress to
                        EPA and the public.


                  Source: Performance Track Website.

                  In our opinion, a key incentive in the Performance Track value proposition is that
                  members are eligible to receive a low priority for routine EPA and State
                  inspections. EPA offered this incentive because it anticipated that facilities that
                  demonstrated sustained regulatory compliance would require fewer inspections.
                  This offers an additional potential benefit to EPA in that EPA could use
                  enforcement resources to conduct inspections at higher risk, nonmember facilities
                  whose compliance records have not received the same scrutiny.




8
  Research has shown that increased incentives for participants in voluntary programs come with higher
requirements from the Agency. This situation leads to greater scrutiny for the participants and, therefore, fewer
facilities participating in partnership programs with higher demands on participation. Thus, voluntary programs
must balance requirements with incentives.
9
  Appendix D describes incentives in more detail.


                                                          5

Performance Track Implementation
                  Program resources for Fiscal Year 2006 included approximately 28 full time
                  equivalent staff (FTEs)10, and $2.2 million in funding for grant and contract
                  work.11 The program receives applications twice a year from private and public
                  U.S. facilities. Applicants range from relatively unregulated groups, like facilities
                  designed for recreation and entertainment, to facilities subject to a larger set of
                  environmental statutes, such as producers of chemical products.

                  Performance Track Process

                  The premise underlying Performance Track is that recognition and
                  encouragement of top performers will result in previously unrealized
                  environmental benefits. Therefore, the program emphasizes recruitment,
                  screening, and reporting by member facilities.

                  1. Application Solicitation

                  The program accepts applications from facilities twice each year, in the spring
                  and fall. Performance Track staff and contractors encourage likely candidates to
                  apply to the program through a targeted membership campaign involving phone
                  calls, mailing campaigns, trade association conference presentations, and other
                  activities. However, EPA welcomes any facility to submit an application.

                  2. Application Review, Commitment Setting, 

                  and Member Selection 


                  Once a facility submits an application, Performance Track staff and contractors
                  review the application materials and assess the facility’s evidence that it exhibits
                  the four criteria described previously. The program typically accepts
                  approximately 75 percent of applications.

                  Performance Track staff work with applicants as they set their 3-year “beyond
                  compliance” environmental commitments. Performance Track staff emphasize
                  that they encourage facilities to set commitments that will represent a significant
                  challenge and may not be met, or “stretch” goals. Each facility selects two to four
                  commitments based on its size and the type of commitments it chooses.12 Once
                  EPA and facilities agree on these, EPA may accept the facility for membership.
                  Performance Track posts accepted member applications on the EPA Website.




10
   Eighteen in headquarters, 7 to 10 FTEs in EPA regional offices, according to program management. 

11
   The program operated contracts that could not exceed $7 million per year, but estimated that it spent $2.3 million 

total in contract and grant spending each year. 

12
   See Appendix E for a list of commitments made by sample facilities. 



                                                          6

                  3. Member Performance Reporting

                  Performance Track members submit annual reports to EPA describing their
                  progress in achieving environmental commitments.13 EPA assesses performance
                  reports, and requests additional information when necessary. EPA compiles
                  acceptable annual facility reports into an annual performance document for the
                  public. This document describes aggregate member progress for the previous
                  calendar year. As of fall 2006, EPA produced four annual reports presenting
                  aggregate progress for members in 2001 through 2004. Performance Track
                  presents each facility’s annual reports and overall program progress reports on the
                  EPA Website.14

                  4. Member Renewal

                  After completion of their 3-year commitment cycle, members can choose to
                  renew their Performance Track membership as long as they are in good standing.
                  To be in good standing, a member must continue to meet the program criteria of
                  sustained compliance, fully implemented environmental management system
                  (EMS), and commitment to public outreach; and demonstrate a good faith effort
                  in working towards its performance commitments. To apply for renewal,
                  facilities commit to two to four new stretch goals for their new 3-year
                  membership cycles.

                  5. Member Removal

                  According to the Performance Track Program Guide, failure to make any progress
                  or a decline in overall facility performance can lead to removal from the program.
                  However, the Program Guide also emphasizes that failure to meet commitments
                  does not constitute grounds for removal from the program because the
                  commitments represent stretch goals.

Performance Track Membership
                  EPA began accepting applications for membership in 2001, choosing 226
                  facilities in the first round. The program grew as facilities applied, were accepted,
                  renewed their membership, or withdrew from the program. As of November 3,
                  2006, Performance Track included members from 17 different sectors. Figure 2.3
                  shows the distribution of members among sectors.




13
   The program did not validate self-reports, but EPA exempts facility annual data from its performance report when 

Performance Track staff are not confident in the numbers. They said that the number of facility results excluded 

from aggregation was “higher than they would like it to be.” 

14
   The program office supplied the raw data for 2005 for the purpose of this review. 



                                                         7

                                Figure 2.3. Membership Distribution by Sector




                                     Wood Products, Paper, and              Arts, Recreation, and
                                             Printing                           Entertainment
                                 Wholesale, Retail, and
                                      Shipping
                       Transportation Equipment                                                  Chemical Products

                             and Supplies


                               Textile Products


                Rubber and Plastics Products


                                                                                                         Electronic and Electrical
                    Research and Education                                                                      Equipment




                       Pharmaceutical Products                                                         Energy, Utilities, and Sanitary
                                                                                                                 Services
                                                                                                    Machinery Equipment
                                    Miscellaneous Non-                                      Medical Equipment and
                                      manufacturing                                               Supplies
                                      Miscellaneous Manufacturing               Metal Products
                                                  Mining and Construction




                  Source: Performance Track database

                  As shown in Figure 2.4 below, as of January 10, 2007, 755 facilities had applied
                  for membership in Performance Track, and 417 applicants were active program
                  members. 15 Sixty-two facilities chose not to renew their membership for reasons
                  ranging from facility management changes to not seeing enough value in the
                  program. Performance Track had asked 45 facilities to leave the program: 20
                  facilities because they did not submit reports and 25 because their EMS did not
                  comply with program criteria. Forty-eight facilities left the program voluntarily
                  due to facility changes, not seeing enough value in the program, and other
                  unspecified reasons. EPA denied renewal to 16 facilities for failure to meet
                  program requirements. EPA did not accept the remaining 165 applicants for
                  membership because they did not meet the program criteria.




15
  According to Coglianese and Nash, EPA estimated that 5,000 U.S. facilities met at least some of the basic criteria
for membership, p. 3.


                                                                 8

           Figure 2.4. Disposition of Performance Track Applicants through January 2007



                                                  Unknown/inactive,
                                                        2
                              Not accepted,
                                   165




                         Renewal not
                         accepted, 16
                      Left on own, 48                                    Active, 417


                          EPA asked to
                            leave, 45
                              Did not apply for
                                renewal, 62

                                                  755 total applicants


         Source: Performance Track database.


Program Performance Measurement and Reporting
         The Government Performance and Results Act of 1993 (GPRA) requires Federal
         agencies to prepare performance plans containing annual performance goals and
         measures to help them manage for results. EPA’s strategic plan outlines the
         Agency’s five long-term goals. To fulfill its five strategic goals, the plan includes
         a series of more specific goals in the form of objectives and sub-objectives. Each
         of these objectives has associated performance measures designed to demonstrate
         progress in achieving the objective and, eventually, the strategic goal.

         Performance Track reports on its performance in two ways. First, the EPA annual
         GPRA report shows progress toward program goals that are based on member
         commitments. Performance Track established its Annual Performance Goal
         (APG) under EPA GPRA goal 5 in 2005: Improve environmental performance
         through pollution prevention and innovation. To achieve this goal, the program
         planned to achieve reductions in six resource areas: water use, energy use, solid
         waste, air emissions, water discharge and material use. This APG related to one
         of the four Performance Track criteria: beyond compliance achievements.
         Second, as described previously in this chapter, EPA issued public annual
         progress reports showing members’ collective progress toward environmental
         commitments and highlighting specific success stories. EPA considers
         Performance Track a model for partnership programs based on the commitments




                                               9

          members make and by highlighting progress on selected commitments; we
          discuss this concept in detail in Chapter 4.

Summary
          EPA created Performance Track under the premise that recognizing and
          encouraging top performers would foster beneficial outcomes such as innovation,
          improved methods for environmental protection, and results beyond compliance.
          EPA established four criteria for membership, and defined those facilities
          accepted for membership as “top environmental performers.” EPA reports on
          progress members make toward environmental commitments, and based on these
          results, EPA highlights Performance Track as a model for partnership programs.




                                         10

                                Chapter 3
             Performance Track Design Not
          Clearly Linked to Intended Outcomes
          In creating the Performance Track program, EPA did not establish links between
          recognizing and encouraging top environmental performers and achieving
          ambitious outcomes such as innovation, improved methods for environmental
          protection, and results beyond compliance. The absence of a comprehensive,
          cohesive strategic plan led to the pursuit of multiple, overlapping objectives, and a
          lack of performance information related to the program mission, vision, and goals.

Program Does Not Clearly Link Mission, Vision, Goals, and Measures
          Successful programs have a strategic planning process that clearly links goals
          with well-defined strategies, action plans, and performance measures. In the case
          of Performance Track, a strategic plan should demonstrate how the value
          proposition, the program design, and activities would lead to broader outcomes
          like innovation, improved methods for environmental protection, and results
          beyond compliance. In reviewing the key guidance documents for Performance
          Track, we found that the program does not have a comprehensive and integrated
          set of plans for leveraging the recognition of top performers to achieve the
          program’s ultimate objectives.

          The program presented five internal planning documents: (1) strategic plan; (2)
          logic model; (3) vision document; (4) goals and measures document; and (5) a
          division budget. However, these documents do not collectively provide a way to
          link the vision with the process. For example, according to program staff, both
          the strategic plan and logic model were outdated and unused. While the vision
          document describes the 5-year vision for Performance Track, the document does
          not include statements about achieving environmental results or continuous
          improvement from program participants.

          Figure 3.1 compares the program mission statement, vision statement, strategic
          plan goals, and annual performance goals. Together, these documents describe a
          related set of objectives and expectations; however, they do not clearly articulate
          how EPA will employ the tools and techniques in the program design to achieve
          program goals or how to achieve the benefits anticipated by the program. For
          example, program guidance does not describe:

          •	     How “continuous improvement” is defined, monitored, and what options
                 might be employed when it is not achieved.
          •	     The options for achieving annual performance goals: i.e., increase number
                 of members, preference for larger facilities, change goals to measures of
                 environmental efficiency rather than impacts.


                                           11

•	      How to determine the innovation facilitated by Performance Track, its
        contribution to improved environmental performance, and whether it is
        shared.
•	      How transformed relationships between members and EPA will lead to
        tangible regulatory efficiencies and improved environmental benefits.
•	      How to determine if member results are attributable to the program.

Figure 3.1. Comparison of Performance Track Program Mission Statement, Vision
Statement, Strategic Plan Goals, and Annual Performance Goals

                                                Strategic Plan        2006 Annual
 Mission Statement      Vision Statement        Goals 2003-2008       Performance Goals
 Improve                Incorporation of        Encourage             Reduce 3.5 billion
 environmental          performance track       continuous            gallons of water use;
 performance            into regulatory         improvements in       15,500,000 Million
                        policies and            environmental         Metric British
 Transform              processes               performance           Thermal Units
 relationships                                                        (MMBTU) of energy
 (between the           Linkages with           Increase program      use; 1,000 tons of
 regulators and the     State/Federal           applicants            materials use;
 regulated              programs and                                  440,000 tons of solid
 community)             policies                Expand ownership      waste; 66,000 tons
                                                of the program        of air releases;
 Encourage              A learning              with key              12,400 tons of water
 innovations            community and           stakeholders          discharges
 (through               process for
 networking,            continuous              Increase the
 regulatory changes,    improvement             business value for
 and fostering a                                members
 culture of             Awareness and
 continuous             reputation value        Enable EPA and
 improvement)                                   States to use their
                        An engine for           enforcement and
                        environmental           regulatory
                        policy innovation       resources more
                                                effectively

Source: Performance Track internal documents.

Together, these documents address only portions of the value proposition. The
documents describe internal goals and targets for increasing the business value of
the program (e.g., members taking advantage of at least one incentive and States
where incentives are available to members). These documents show that EPA
measured whether it offered incentives to members. However, the documents do
not address the member portion of the value proposition, represented by the four
program criteria:




                                    12

                    (1)	    Criterion 1, EMS: EPA did not include EMS-related goals or measures.16
                    (2)	    Criterion 2, Public Outreach: EPA did not collect more than basic
                            information on public interaction for facilities, and did not include this
                            element among goals and targets.
                    (3)	    Criterion 3, Compliance: EPA did not include member compliance
                            measurement or tracking in these planning documents.
                    (4)	    Criterion 4, Beyond Compliance: The program included member
                            commitments, but not member-beyond-compliance achievements in its
                            internal planning.

                    The absence of a comprehensive, cohesive, strategic plan for Performance Track
                    also led to the pursuit of multiple, overlapping objectives within the program. We
                    observed that 6 years after the start of the program, program management and
                    staff did not focus their efforts on achieving one goal, or a set of consensus
                    program goals. Instead, they articulated several different goals and objectives for
                    the program. Though many of these relate to program goals or objectives
                    described elsewhere, it was not clear that program efforts would move the
                    program in the direction of any clear outcome.

                    As part of our evaluation, we developed a logic model in coordination with the
                    program staff. The model depicts how program activities would lead to
                    anticipated outcomes. The model includes internal goals, outputs, the program’s
                    GPRA goal as an intermediate outcome, and the EPA mission as an end
                    outcome.17 Appendix F demonstrates the consensus logic model. The model
                    reflects the challenges the program faces in focusing on a clear program objective.
                    The model describes six intermediate program outcomes ranging from reduced
                    environmental footprints to changing environmental protection methods.

Conclusion
                    EPA had hoped to achieve ambitious goals through Performance Track.
                    However, EPA did not develop a strategic plan to link actions and results to the
                    strategic vision. EPA cannot show how its program can lead to the desired
                    outcomes. Establishing performance measures to assess progress and
                    effectiveness allows EPA to better manage its program to achieve the results it
                    desires. If program staff and management share a common objective and
                    understanding of the program design and goals, staff will better understand how
                    their activities contribute to achieving program goals.




16
     Though not included in planning documents, EPA did assess EMSs during site visits.
17
     EPA’s mission: to protect human health and the environment.


                                                         13

Recommendations
         The Associate Administrator for Policy, Economics, and Innovation should:

         3-1    Confirm and clarify the National Environmental Performance Track
                mission and vision.

         3-2    Clearly communicate the defined program objective to EPA, Performance
                Track program staff, the public, nongovernmental organizations, and the
                regulated community, ensuring that each group understands its purpose in
                helping achieve the program objective.

         3-3    Refine, prioritize, and periodically revisit a program logic model or
                business model for demonstrating how Performance Track will achieve its
                goals. This model should demonstrate links from mission, vision, and
                goals to operations and performance measure to gauge effectiveness so
                that the program can be managed for success.

         3-4    Design a comprehensive, strategic program plan to connect activities with
                goals and to encourage staff and management to focus on program goals
                and member commitments.

         3-5    Based on key program design elements and outcomes, develop a suite of
                performance measures so that program staff and management can easily
                track progress. Based on how the program design is modified, develop
                and report on the following:

                3-5.1 Four program criteria to measure how well members meet and
                      continue to meet the standards set for entry.

                3-5.2 Outcome measures that describe if/how the program members
                      contribute to outcomes such as innovation and collaboration, and
                      that show if the program is leading toward performance-based
                      changes in environmental protection.

Agency Response and OIG Evaluation

         The Agency concurred with the recommendations in Chapter 3. Appendix A
         provides the full text of their response.




                                        14

                                 Chapter 4
         Performance Track Does Not Generally
               Fulfill its Value Proposition
          The program design focused on a value proposition: facilities demonstrate
          environmental performance by committing to the four program criteria; in return,
          EPA offers incentives. However, the program cannot demonstrate that members
          achieve environmental results in three of four program criteria areas: EMS
          implementation, public interaction, and compliance. Also, members cannot take
          advantage of some incentives.

          In the absence of a means to capture many of the anticipated benefits of
          Performance Track, the program collects and reports on cumulative “beyond
          compliance” environmental performance for members, and reports these as their
          contribution to EPA goals. However, most members do not achieve all of the
          commitments they set under Performance Track, and these results cannot, in fact,
          be attributed to program participation.

          As a result, these implementation challenges threaten the integrity of the
          Performance Track brand.

Not All Members Met Criteria or Achieved Environmental Results
          EPA selects members based on the four program criteria (see Chapter 2). We
          looked at information the program collected for each criterion to determine what
          impact members had at present. Our analysis shows that most members do not
          make the environmental progress anticipated when they set commitments.

          (1) Environmental Management System (EMS) Implementation

          As members of Performance Track, facilities must implement an EMS.
          Performance Track conducts site visits at approximately 10 percent of member
          facilities each year. During initial site visits, EPA frequently found that facilities
          did not have adequate EMSs in place. As a result, EPA modified the program to
          address weak EMSs:

          •	     EPA focused site visits on facilities that did not receive independent EMS
                 assessments,
          •	     EPA revised the site visit protocol,
          •	     EPA added a new entry criterion requiring independent assessment for
                 EMSs,
          •	     EPA created a site visit training course, and



                                            15

                 •	      Twenty-five facilities withdrew from the program (through September
                         2004).

                 The program did not otherwise measure or report on how EMS implementation
                 led to achieving program goals or environmental results.

                 (2) Public Outreach

                 The program did not measure, report, or otherwise focus attention on how
                 members interact with the public or if this criterion contributes to achieving
                 program goals or environmental results.

                 (3) Sustained Regulatory Compliance

                 As of August 3, 2006, EPA had not asked any facility to leave the program
                 because of compliance violations. EPA expects that a vigorous performance- and
                 compliance-focused EMS will identify instances of actual or potential
                 noncompliance for prompt correction. The program noted that, in general,
                 Performance Track facilities would be rewarded for their self-identification,
                 correction, and prompt disclosure of violations through penalty mitigation under
                 EPA's Audit Policy. Its 2003 strategic plan explained this concept, saying “a
                 credible system of self-auditing and self-correction, combined with independent
                 audits, makes traditional inspections largely unnecessary for program members.”

                 According to Performance Track, EPA’s Office of Enforcement and Compliance
                 Assurance (OECA) has information about self-reported violations, but
                 Performance Track did not track self-disclosures from member facilities except in
                 cases where the facility reported the disclosure directly to the Performance Track
                 staff. As a result, the program could not differentiate self-disclosed compliance
                 violations from those uncovered by a regulatory inspection.

                 Compliance databases present additional information, such as enforcement
                 actions and penalties. Program criteria prohibit facilities with three or more
                 significant violations, but Performance Track guidance encourages staff to
                 consider other compliance issues during the application process. We assessed the
                 information in EPA’s internal compliance database for all Performance Track
                 facilities as of November 6, 2006, to see if significant violations provided an
                 accurate picture of compliance. We found that 20 Performance Track facilities
                 listed in the compliance database (4 percent) had current significant violations.18
                 Some of these facilities may not have qualified for membership if their
                 applications were pending at the time of our assessment.



18
  This compliance database, OTIS, showed 500 Performance Track facilities, though Performance Track listed only
417 members at the time. This discrepancy was due to different facility tracking methods. We calculated
percentages based on 500 facilities, total.


                                                      16

Some facilities did not have current significant violations, but other compliance
issues called their leadership qualities into question. These indicators show that
126 facilities (approximately 25 percent) received notices of violation within the
past 5 years, 54 (approximately 10 percent) received formal enforcement actions
in the past 5 years, and EPA levied noncompliance penalties at 40 facilities
(approximately 8 percent). EPA collected $5,999,011 in noncompliance penalties
at these Performance Track facilities over the past 5 years. For example,

•	       One member facility showed a 2005 corporate enforcement action with a
         total compliance action cost of $265 million for violating the new source
         performance standard. Though the facility did not have any current
         significant violations, its record showed 14 quarters of noncompliance
         with air and water regulations over the past 3 years, one informal
         enforcement action, and seven formal enforcement actions over the past 5
         years.

•	       Another member facility showed one current significant violation, but
         seven quarters of noncompliance with air and water regulations over the
         past 3 years, one informal enforcement action, and 20 formal enforcement
         actions over the past 5 years.

Notably, quarters of noncompliance (an indicator not included in Performance
Track compliance screens) and significant violations tie together closely. We
found that 133 facilities (approximately 27 percent) did not comply with an aspect
of environmental regulation for one or more quarters (for the 3 years ending in
November 2006). As quarters of noncompliance rose, facilities accrued
significant violations. Figure 4.1 shows this relationship.

Figure 4.1. Quarters of Noncompliance and Significant Violations

      Quarters of                                     # Facilities with Significant
     Noncompliance               # Facilities                   Violations
                                #               %         #               % of SVs
 0                             367              73        0                   0
 1-4                            66              13        0                   0
 5-8                            27              5.4       6                  30
 9-12                           31              6.2       9                  45
 13-21                          9               1.8       5                  25
         TOTAL                 500                        20
Source: OTIS database and OIG analysis.


Thirteen percent of facilities had more than 1 year of noncompliance (five or
more quarters of noncompliance), and these same facilities show all of the
significant violations among Performance Track facilities. This statistic indicates
that Performance Track could track quarters of noncompliance to indicate if
facilities might incur significant violations in the future.




                                    17

                 The program cited problems with EPA compliance tracking databases, saying that
                 additional research could negate violations apparent in the database in many
                 cases. The program staff and contractors conducted compliance screens and
                 responded to OIG inquiries about compliance problems by conducting extensive
                 inquiries into the reported incidents with EPA regions, States, and the facilities
                 themselves. Rather than placing the burden of proof on facilities, the program
                 used EPA time and resources to verify EPA databases. Because Performance
                 Track did not rely on compliance databases, the public may believe that
                 Performance Track members did not comply with an aspect of environmental
                 regulation.

                 Compliance Record Keeping

                 As part of our program evaluation, we selected a random sample of 40
                 Performance Track facilities for detailed analyses. We found evidence of
                 applicant compliance screens for 34 of the 40 facilities in our sample.19 This
                 evidence came in the form of emails and handwritten notes indicating the results
                 of compliance screens for facilities’ applications.

                 Coglianese and Nash also reported incomplete electronic comment forms,
                 including information related to facilities’ compliance records, on Performance
                 Track applications. Incomplete records could result in the facility’s compliance
                 status not being registered, even when it is a deciding factor in the process.20

                 We found that as of November 2006, EPA had developed a systematic method for
                 documenting and retaining compliance screens for Performance Track members.

                 (4) Member Environmental Commitments

                 We analyzed 40 randomly selected member facilities to see how they
                 accomplished their environmental commitments. The sample facilities averaged a
                 16 percent improvement over their baselines for Performance Track commitments
                 as of the conclusion of this evaluation.21 These results indicate that member
                 facilities achieved environmental results related to their commitments that
                 improved their previous performance.

                 However, for the 30 facilities we assessed who had completed a 3-year
                 commitment cycle, only 2 met all commitments. (See Appendix G, Figures G.1
                 and G.2.) The other 28 facilities most commonly met half of their commitments.
                 Performance Track staff encouraged members to set stretch commitments, and
                 explained that they did not intend for members to achieve these commitments,

19
   Compliance screens should summarize the history of Federal and State enforcement actions taken against a 

company or facility due to not complying with environmental statutes and regulations. 

20
   Coglianese and Nash, p. 87. 

21
   Performance on environmental commitments ranged from a 57 percent decline below baselines to a 100 percent

improvement over baselines. The median was an 11 percent improvement. 



                                                      18

                 just for them to make progress. Accordingly, few members met their
                 commitments. Thirteen percent (5 of 40) reported environmental conditions
                 declined below their baselines from entry into the program to the present.

                 Performance Track conducted an internal assessment of commitment achievement
                 for seven commitment areas for facilities completing a commitment cycle in
                 2003, 2004, and 2005.22 The program found that facilities came close to
                 achieving commitments in aggregate. However, Performance Track also found
                 that, on average, 46 percent of facilities that made these commitments did not
                 achieve them. Program staff noted that this disparity was possible because
                 aggregate results could be skewed by one facility’s performance. Facilities in our
                 analysis varied widely in performance on commitments.

Program Has Achieved Less Than Half of GPRA Targets
                 Performance Track’s GPRA APG related to one of the four Performance Track
                 criteria: beyond compliance achievements. The program did not report on results
                 related to the other three program criteria. EPA set six targets for the
                 Performance Track GPRA goal, drawing on data from facility commitments.
                 Achieving the APG depends on facilities making progress toward achieving key
                 commitments. As Figure 4.2 demonstrates, the program did not achieve its goal
                 for 2005— the program did not meet five of the six targets. For three of the six
                 targets comprising the goal, conditions worsened. For two of the six, conditions
                 improved, but the program did not achieve the target. In 2006, the program made
                 progress over baseline for all, and achieved three of six targets, but still did not
                 meet its overall GPRA goal.




22
  The program selected seven commitments for analysis: (1) water use, (2) energy use, (3) hazardous materials use,
(4) hazardous waste, (5) nonhazardous materials, (6) nonhazardous waste, and (7) volatile organic compounds.


                                                        19

                Figure 4.2. Performance Track Targets in EPA’s Strategic Plan
                for Fiscal Years 2005 through 2008

                                   Reduced       Reduced       Reduced       Reduced       Reduced     Reduced
                                   water use     energy        solid         air           water       materials
                                   (million      use           waste         emissions     discharge   use (tons)
                                   gal)          (MMBTU)       (tons)        (tons)        (tons)
                2005 goal          600           2.5           200,000       6,000         10,000      15,000
                2005 actual*       528           -22.0         -22,000       7,700         7,700       -150,000
                2006 goal          900           7             300,000       35,000        10,000      20,000
                2006 actual*       1,700         4.3           48,200        24,400        16,903      24,719
                2007 goal          1,100         8.4           360,000       42,000        10,000      20,000
                2008 goal          1,500         3.3           450,000       10,000        19,000      26,000
                  * Targets met are highlighted in green; targets not met are highlighted in red

                Sources: U.S. EPA Fiscal Years 2005 and 2006 Annual Performance Reports and Performance
                Track documents.

                In assessing why the program did not achieve its Fiscal Year 2005 targets, we
                looked at program annual progress reports. Reports for Fiscal Years 2001
                through 2005, and data from Performance Track from Fiscal Year 2005, show that
                members’ material use increased for the past 2 years (Fiscal Years 2003 and 2004
                data), as demonstrated by Appendix G, Figure G.3. Energy use also increased for
                Fiscal Year 2004, rather than declining as predicted by the program GPRA goal.23
                Performance Track does not present program trends in its reports and can not
                show whether program results improve or decline from year to year, or determine
                why members do not meet their commitments.

                As described in Chapter 3, the program did not set internal targets for meeting its
                EPA goals, so it did not track members’ progress toward achieving key
                commitments. The program’s internal target that related to environmental results
                “increase number of member commitments” did not measure whether members
                achieved the commitments they set.

                Although EPA defined one program outcome as reducing the overall
                environmental footprints of member facilities, Performance Track cannot gauge
                changes in facilities’ overall environmental improvement because they only report
                on their predefined commitments. Stakeholders said that because members report
                on only their two to four commitments, EPA and the public cannot tell if another
                aspect of facility maintenance declined. Thus, EPA cannot tell if facilities made
                overall environmental improvements, or rather improved in one area and faltered
                in others. By measuring other aspects related to a facility’s overall environmental



23
 We did not compare FY2006 APR results with program documents because Performance Track data for FY 2006
were not yet available.


                                                         20

                 improvement, the program could better show how facility participation in
                 Performance Track leads to environmental improvements.24

Members Lack Access to Some Incentives
                 EPA recognizes that members do not have access to some of the incentives
                 designed as rewards for participation. Federal statutes give most States the
                 authorities related to Performance Track incentives. States issue permits and
                 conduct the majority of facility inspections under the statutes.25 No State grants
                 all four major incentives to program members. Two States, Colorado and
                 Pennsylvania, grant all incentives except the low priority for routine inspections.

                 In the draft report for this evaluation, we referred to a Performance Track
                 document shown on its Website for the duration of the evaluation. This chart
                 demonstrated how few States offer Performance Track incentives. Subsequent to
                 our draft report, Performance Track removed this chart from its Website and
                 notified us that the chart was incomplete.

                 Performance Track staff and stakeholders commonly mention low routine
                 inspection priority as a problem for compliance monitoring: without regular
                 inspections, they ask, how can EPA know if Performance Track members
                 maintain satisfactory compliance records? However, Performance Track
                 previously reported that only 11 of 57 States and territories employed this
                 incentive. As a result, although Federal inspections declined at member facilities,
                 State inspections largely did not.

                 Because some program incentives are not widely available, Performance Track
                 members generally receive only EPA’s “seal of approval” as a reward to
                 participating in the program. EPA has found that Performance Track members
                 see EPA collaboration and recognition as the most valuable reasons to participate
                 in the program. According to biannual Performance Track member surveys, EPA
                 offers valuable “brand” recognition. Coglianese and Nash found that the facilities
                 Performance Track attracts are looking for recognition: they already actively
                 cultivate an identity of environmental responsibility and leadership, value
                 recognition, and actively seek to engage regulators and communities.26

Conclusion
                 Performance Track did not measure and report on members’ adherence to all four
                 program criteria, or describe whether meeting these criteria led to achieving
                 environmental results. The program criteria do not require assessing key

24
   According to EPA, aggregate results were heavily impacted by large facilities. However, as noted in Chapter 4 of 

this report, we found that few facilities met all environmental commitments, regardless of facility size. 

25
   These statutes include the Resource Conservation and Recovery Act (RCRA), the Clean Water Act (CWA), and 

the Maximum Achievable Control Technology (MACT) portion of the Clean Air Act (CAA). 

26
   Coglianese and Nash, p. 5.



                                                        21

         compliance information that show whether an applicant has a sustained record of
         regulatory compliance. The program’s EPA goal is based on member
         commitments. However, EPA did not focus on making progress toward those
         goals. By developing a comprehensive performance measurement and reporting
         system, the program could better determine which activities worked to help
         achieve environmental goals, and refocus on successful activities. To meet its
         GPRA goals and maximize environmental results from the program, Performance
         Track will need to encourage members to set and achieve ambitious goals.

Recommendations
         The Associate Administrator for Policy, Economics, and Innovation should:

         4-1    Maintain a centralized database for compliance screening information and
                decisions on Performance Track members.

         4-2    Encourage member facilities to set and achieve commitments so that the
                public has a clear idea of what members will actually achieve.

         4-3    Based on the definition of Performance Track program objective and the
                logic model developed from this objective, determine whether EPA should
                collect additional data from program members.

Agency Response and OIG Evaluation

         The Agency concurred with the recommendations in Chapter 4. Appendix A
         provides the full text of their response.

         The Agency noted that three program criteria, EMS implementation, public
         interaction, and compliance, do not have a direct connection with environmental
         results. In response, we want to emphasize that Chapters 3 and 4 describe the
         importance of demonstrating that the program design, as well as its mission,
         vision, and measures, should all logically lead to environmental results.




                                         22

                                            Chapter 5
            Some Members Exceed Sector Average for
              Noncompliance and Toxic Releases
                  EPA expected that the Performance Track program would foster outcomes like
                  innovation, improved methods for environmental protection, and results beyond
                  compliance. When the program began, the Agency outlined it as a program to
                  “recognize and encourage top environmental performers,” and continues to use
                  this description in its public documents and statements. Because EPA cannot
                  demonstrate how it may achieve these ambitious outcomes, such as innovative
                  solutions and changed relationships, we set out to determine how well the
                  program achieves its stated objective: recognizing top environmental performers.

                  Our analysis shows that most members demonstrate “top performance,” beyond
                  the average for their peers, for two environmental indicators: compliance and
                  toxic releases. However, some facilities had more compliance problems or
                  released more pounds of toxic substances than the average for their peers. The
                  presence of underperforming facilities reduces the integrity and value of the
                  Performance Track brand.

Program Equates Membership with Leadership
                  Program staff and management said that compliance with the four program
                  criteria indicated that members were “leaders.” Coglianese and Nash found that
                  program members differed from nonmembers in that they acted as “joiners,” so
                  equating membership with leadership may mean that members only differ from
                  nonmembers in that they chose to apply.27 There is no evidence that members
                  differ materially from nonmembers in environmental performance. In fact, EPA
                  has not compared member facilities with their peers for environmental
                  performance indicators to determine if members lead in their sectors.28
                  Coglianese and Nash concluded that EPA does not determine if Performance
                  Track members are better performers than nonmembers. The study said:

                           Despite some Agency claims that Performance Track is designed
                           to recognize “top” environmental facilities, the application and
                           admissions process do not directly address whether members’
                           performance is better than other comparable facilities that have
                           not applied to the program—nor even whether their progress is in
                           other ways significant.29


27
   Coglianese and Nash, p. 5.

28
   For a new program aspect, the “Corporate Leader” designation, EPA compared company compliance with sector 

compliance, but it did not use this method on a facility by facility basis for the “Performance Track” designation. 

29
   Coglianese and Nash, p. 14. 



                                                         23

                 In an effort to compile available information about members’ and comparable
                 facilities’ environmental performance, we developed an approach using public
                 environmental performance data on regulatory compliance and toxic releases.
                 Performance Track compliance screening guidance encourages staff to consider
                 both of these aspects when reviewing applicants.30 We analyzed a random sample
                 of 40 member facilities and compared their performance with that of their
                 sectors.31 By comparing member performance with average sector performance,
                 we could determine if a facility led or fell behind its sector average for these two
                 indicators. This analysis provides a rough indication of comparative
                 environmental performance.32

Most Members Are Top Performers
                 In our analysis, we found that most sample members outperformed their sectors
                 for compliance and toxic releases as reported to EPA’s Toxics Release Inventory
                 (TRI). 33 Twenty-two of 35 facilities (63 percent) had no compliance problems
                 and outperformed their sector peers in every measure of compliance.34 We also
                 found that at 14 of 27 facilities reporting toxic releases (52 percent), toxic
                 emissions declined since the facility joined the Performance Track program. In
                 2003, 22 of 27 sample facilities (81 percent) reported fewer toxic releases than
                 their peers in their industrial business sectors. Facilities exhibiting this leadership
                 performance came from all Performance Track sectors included in our analysis,
                 and represented all size classes defined by the program.

Some Facilities Had More Compliance
Problems than Their Peers
                 Thirteen of the 35 facilities that had received an inspection (37 percent) had more
                 compliance problems than their sector average for one or more compliance
                 measures. These facilities represented 9 of the 14 sectors included in our sample.
                 Appendix G, Figure G.4 summarizes compliance problems uncovered in the
                 sample.

                 As mentioned previously, 5 of the 40 facilities in our sample had not received an
                 inspection within the past five years. Two of these facilities were classified as
                 nonmanufacturing facilities, but of the other three, two are chemical plants, and
                 one is an electronics facility. As a result, EPA accepted and retained these


30
   Many studies look to toxic releases as an indicator of environmental performance. These include Coglianese and 

Nash, the American Chemistry Council, and the Environmental Council of the States. 

31
   We defined sectors by the North American Industrial Classification System (NAICS) code for a facility. When a 

facility reported under more than one NAICS code to Performance Track, we calculated a composite sector that used 

all NAICS codes cited.

32
   See Appendix B, Detailed Scope and Methodology, for additional details. 

33
   During our analysis, the most recent TRI data available were for 2003. 

34
   Five of the 40 facilities had never been inspected, and so were excluded from our compliance analysis. 



                                                       24

                 facilities as members with no information about their compliance with
                 environmental regulations.

Some Facilities Released More
Toxic Chemicals than Their Peers
                 Based on 2003 toxic releases, some Performance Track facilities do not
                 outperform their sectors. Five of 27 (19 percent) facilities in our sample reporting
                 to TRI released more toxic pollutants than their sector average for 2003.35 We
                 also found that 4 of 27 (15 percent) of the facilities in our sample increased their
                 reported toxic emissions after joining Performance Track.36 These facilities
                 increased their toxic emissions by an average of 587,257 lbs per facility despite
                 committing to the Performance Track program.

Summary
                 Four facilities exceeded their sectors for both compliance problems and toxic
                 releases. This result provides insight into member environmental performance,
                 indicating that while program criteria may deem an applicant a top performer, this
                 designation may not hold true when the facility is compared with other facilities
                 in its sector. Figure 5.1 describes compliance and toxic release issues for the four
                 facilities that underperformed in both compliance and toxic releases.




35
   Program members tend to be larger facilities, which may mean that they emit more toxic pollution than smaller
facilities. However, our sample included multiple facilities in the same Performance Track sector, and facilities
varied in size. Some large facilities emitted more toxic releases than their sector, while others emitted less.
36
   At 7 of the 27 facilities, toxic releases remained unchanged (26 percent).


                                                        25

         Figure 5.1. Sample Facilities with Both More Compliance Issues
         and More Toxic Releases Than Sector Peers

                       Compliance                                 Toxic Releases
          Facility 1: Rubber and Plastics Products

          1 qtr. of noncompliance (RCRA)          Emitted 204,397 lbs. (231%) more toxic
          2 notices of violation (CWA, RCRA)      chemicals than sector average in 2003

          Facility 2: Transportation Equipment and Supplies

          9 qtrs. of noncompliance (CWA)          84% transferred offsite, emitted 16% more
          1 notice of violation (RCRA)            toxic chemicals than sector average

          Facility 3: Chemical Products

          1 qtr. of noncompliance (CWA)           39,593 lbs. increase in toxic releases since
          4 notices of violation (CAA)            program entry
                                                  72% transferred offsite, emitted 12% more
                                                  toxic chemicals than sector average

          Facility 4: Wood Products, Paper, and Printing

          4 qtrs. of noncompliance (1 CWA, 3      447,475 lbs. increase in toxic releases since
          CAA)                                    program entry;
          4 notices of violation (1 CWA, 3 CAA)   Facility has introduced 9 new toxic chemicals
          3 formal enforcement actions (CAA)      since 1996, emitted 194% more toxic
          1 penalty for $15,000 (CAA)             chemicals than sector average


         Source: OTIS and OIG analysis.

         EPA does not assess or track members’ performance as compared with their peers
         and has not removed any for poor performance in either regulatory compliance or
         toxic emissions.

Conclusions
         Our analysis shows that Performance Track has recognized many above average
         environmental performers among its members. The majority of facilities in our
         sample outperformed their sectors averages in both compliance and toxic
         releases—regardless of facility size or sector—which demonstrates leadership
         within the sector. However, we also found member facilities with more
         compliance problems or more toxic releases than their sector averages.

         In Chapter 2, we described how EPA created and designed Performance Track
         and EPA’s broad vision for the program. In Chapter 3, we discussed how
         Performance Track needs a cohesive strategic plan to link its vision with its
         activities and measures for program progress. In Chapter 4, we discussed how
         EPA needs to see how the design is working – that is, whether membership


                                           26

         criteria lead to program results, and whether members receive incentives. In this
         chapter, we discussed how, although many members do perform above average,
         Performance Track does not know if its members are “top performers,” despite
         public claims to the contrary.

         Taken together, the results from this evaluation demonstrate that EPA could
         modify the program design and improve program management to know if the
         Performance Track model succeeds in “recognizing and encouraging top
         environmental performers,” or in fostering innovation, improved methods for
         environmental protection, and results beyond compliance. Currently, recognition
         by and collaboration with EPA are the incentives members value most. This
         means that Performance Track offers a valuable brand of recognition. Issuing this
         recognition to underachievers does not maintain the value of the brand.

Recommendations
         The Associate Administrator for Policy, Economics, and Innovation should:

         5-1	   Track member environmental performance in independent databases to:

                5-1.1	 Refine criteria by which it defines “top environmental performer.”

                5-1.2	 Establish criteria for removing members from the program when
                       compliance or toxic releases change—independent of sector-wide
                       changes.

                5-1.3	 Show if facility performance changes as they join and progress
                       through the program.

Agency Response and OIG Evaluation

         The Agency concurred with the recommendations in Chapter 5. Appendix A
         provides the full text of their response.




                                         27

                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                   BENEFITS (in $000s) 3

                                                                                                                  Planned
Rec.       Page                                                                                                  Completion          Claimed        Agreed To
No.         No.                        Subject                         Status1           Action Official           Date 2            Amount          Amount

3-1         14    Confirm and clarify program vision                      O       Associate Administrator OPEI

3-2         14    Clearly communicate objective                           O       Associate Administrator OPEI

3-3         14    Refine, prioritize, and revisit program model           O       Associate Administrator OPEI

3-4         14    Design a comprehensive strategic program plan           O       Associate Administrator OPEI

3-5         14    Develop and implement suite of performance              O       Associate Administrator OPEI
                  measures

4-1         22    Maintain centralized application and compliance         O       Associate Administrator OPEI
                  screen database

4-2         22    Encourage members to set and achieve                    O       Associate Administrator OPEI
                  commitments

4-3         22    Consider collecting additional information from         O       Associate Administrator OPEI
                  program members

5-1         27    Track member environmental performance                  O       Associate Administrator OPEI




      1	    O = recommendation is open with agreed-to corrective actions pending;

            C = recommendation is closed with all agreed-to actions completed;

            U = recommendation is undecided with resolution efforts in progress.


      2	    In accordance with EPA Manual 2750, the Agency is required to provide a written response to this report within 90 calendar days that will include a
            corrective actions plan for agreed upon actions, including milestone dates.

      3	    Identification of potential monetary benefits was not an objective of this evaluation.




                                                                                 28

                                                                                    Appendix A


              Agency Response and OIG Comments
MEMORANDUM

SUBJECT:       OPEI Response to Draft Evaluation Report:
               Performance Track Could Improve
               Program Design and Management to Ensure Value
               Assignment Number: 2006-1317

FROM:          Brian F. Mannix
               Associate Administrator

TO:            Jeffrey Harris
               Director for Program Evaluation, Cross-Media Issues


        Thank you for the opportunity to comment on the Draft Evaluation Report issued by the
Office of the Inspector General on February 13, 2007, regarding the National Environmental
Performance Track program. We appreciate the time and effort your team invested in this
project. We are proud that after five years of securing environmental results, we can undergo
this level of scrutiny and confirm what we knew to be true – Performance Track members lead
their peers in environmental performance. We concur with the recommendations you made for
improving the Performance Track program as well. In particular, we appreciate your
recommendations to sharpen our definition of goals and objectives; to create a more realistic
process for linking our programmatic goals with EPA’s strategic goals; to more effectively use
EPA databases to evaluate member qualifications; and to create better intermediate measures of
program results. We also acknowledge the challenges you faced in evaluating a relatively new
beyond-compliance program -- the difficulties of how to best measure leadership, the
complexities of analyzing compliance data, and the limitations of Toxics Release Inventory
(TRI) data.

       My comments first provide some clarifications of the Performance Track business model.
Following that are our more detailed comments on this draft of the report and our response to
each of your recommendations. A list of remaining factual issues that require attention is
attached as an appendix.



OIG Response:
EPA agreed with all our recommendations for program improvement. While EPA took issue with some
aspects of our evaluation methodology and conclusions about the program, the response recognized
improvements could be made.




                                                29

The Performance Track Model

        Performance Track was launched in June 2000 to recognize and encourage continuous
improvements in environmental performance that go beyond existing legal requirements. It
reflects the ideas emerging from a number of expert advisory bodies in the 1990s, among them
the President’s Council for Sustainable Development, the National Academy of Public
Administration, and the Aspen Institute. It also reflects trends in Europe and Japan, where
partnership programs increasingly are being linked with regulatory programs to achieve better
environmental results on a range of issues.

        Performance Track is designed to complement the environmental returns that are realized
through regulation. In addition to augmenting our regulatory strategies, however, it also is aimed
at making them more effective, by encouraging government resources to be used more efficiently
and enabling strong performers to be more innovative and results-oriented. Growing experience
from existing state performance-based programs and from around the world support the view
that partnership programs offer a valuable means of improving environmental results,
particularly when governments need to respond to new and emerging issues. In fact, the
Inspector General released a report in November of 2006 stating this very premise as its title:
Partnership Programs May Expand EPA’s Influence.

        Performance Track’s business model is based on one that is used in many innovative and
high-performing business organizations, in which they set ambitious, “stretch” goals and
determine how best to achieve them. Working closely with state agencies, EPA encourages
Performance Track members to aim high. Members set between two and four environmental
goals that go beyond their legal obligations, and they report annually on their progress. Under
this model, the measure of success is not so much the percentage of goals that are achieved but
the environmental improvements that are realized. The draft report highlights the fact that only
two of the 30 facilities in its sample had achieved all four of their commitments – a result that
would be plainly unacceptable if these were floor requirements imposed by regulation. In fact,
however, these are voluntary stretch goals that are intended to elicit an extraordinary level of
effort. Just as companies set, but do not always meet, ambitious public targets for corporate
earnings, Performance Track members set public targets for environmental performance that
present a challenge. Altogether, the 30 facilities in the Inspector General’s sample met or
exceeded half of their 118 public goals, which is an indication of significant success.

        In terms of the actual environmental gain that is achieved, the program has been able to
document significant improvements, many of which are noted later in these comments. EPA is
careful not to attribute these solely to participation in the program because many other factors
also encourage environmentally responsible behavior. However, we have been able to document
anecdotally that program members have added new goals, strengthened their commitment to
existing goals, and enhanced their environmental management systems and public outreach in
order to establish and maintain their Performance Track qualifications. We currently are
designing a survey instrument for collecting more systematic data on these program effects.




                                               30

Long-Term Potential of Performance Track

        Although most of the attention has been focused on the near-term environmental results,
the longer-term potential of the Performance Track model is even more promising. Performance
Track offers a valuable platform for EPA, state environmental agencies, Performance Track
members, and local organizations to work collaboratively to achieve results. For example, the
State of Colorado and EPA’s Denver Regional Office are collaborating with a Performance
Track member and three Publicly Owned Treatment Works within the Cache la Poudre River
watershed to develop a proposal to coordinate their effluent and ambient monitoring. The State
encouraged the facility to form a stakeholder group to develop the proposal and to also form a
watershed committee. This coordination provides for a better understanding of the health of
their watershed and a greater efficiency in the use of monitoring resources. The State has
proposed a policy that provides a framework for allowing reductions in effluent monitoring
frequencies and encouraging these types of innovative approaches to protect Colorado
watersheds.

        Performance Track also fosters collaboration between regions, states, member facilities,
and EPA through its implementation of challenge commitments, which address priority problems
identified by EPA and local communities. Challenge commitments require that facilities commit
to a specific, high level of performance toward EPA-defined environmental priorities and count
as two of the four commitments. (Small facilities are still required to make two commitments.)
Performance Track partnered with EPA's Office of Water to offer a challenge commitment in
water use reduction, with the Office of Solid Waste and Emergency Response to create a
challenge commitment in Priority Chemicals reduction, and most recently worked with EPA's
Office of Air and Radiation to launch a challenge commitment in energy use reduction.

         Additionally, Performance Track fosters collaboration and innovation through the
Corporate Leader designation, which recognizes companies that have a substantial number of
facilities participating in the Performance Track program and that are committed to
environmental excellence at the corporate level. These companies are focusing on Product
Sustainability Reviews that include Life-Cycle Assessments in order to affect new and existing
product designs, conducting environmental assessments of their suppliers in order to reinforce
their commitment to sustainability, and increasing their reliance on renewable energy sources,
among many other commitments.

Program Recognition and Commitment to Continuous Improvement

        The value of the Performance Track business model and EPA’s implementation of it has
been recognized by external groups. In 2006, the Kennedy School of Government selected
Performance Track as one of the top 50 innovations in American government for its
effectiveness, significance, and potential for replication. The prestigious awards are given to the
most creative, forward-thinking, results-driven government programs at the federal, state,
county, and city levels. Out of a pool of more than 1,000 applicants, Performance Track was one
of only 13 federal programs to be recognized. A recent study of partnership programs by
Prakash and Potoski found Performance Track to be among the most rigorous of such programs
around the world. When compared to other partnership programs, and even many regulatory


                                                31

programs, the quality of our measurement and our ability to track trends over time has few peers.

        EPA welcomes suggestions for improving Performance Track, protecting its brand value,
realizing its potential for improving environmental results, and transforming relationships over
the long term. We agree that there are challenges in measuring the institutional and innovation
effects of the program, in maintaining accurate and up-to-date data on member performance
outside of their Performance Track goals, and in integrating the program with the existing
regulatory system. Building on the support of the Harvard study, we plan to continue engaging
national and international experts to help us meet these challenges in the years ahead.

Performance Track’s Response to Some Issues in the Draft Evaluation Report

       While Performance Track concurs with all of the Inspector General’s recommendations
for improvement, we would like to respond to some of the issues raised in this report, namely,
how we track member results, how we set our Government Performance and Results Act
(GPRA) goals, how compliance information is analyzed, and how we analyze members’ TRI
information.

Performance Track Focuses on Member Results

        Tracking member performance and results is a major focus of the Performance Track
program. Members are required to submit a lengthy annual performance report each year. If
they do not submit their reports, they are removed from the program. EPA posts all member
applications and their annual performance reports online at
www.epa.gov/performancetrack/members. Member results are clearly a focus across each of
Performance Track’s internal planning documents, including through our mission, vision,
strategic plan, annual performance goals, and logic model. We track member trends internally
and also have presented trend analysis and performance data analysis in each of our four
program reports to date, which are available on the Performance Track Website at
www.epa.gov/performancetrack/pubs.htm.

         While the Draft Evaluation Report concludes that, based on its sample, most Performance
Track members lead their peers in environmental performance, it also asserts that Performance
Track could not demonstrate that members achieve environmental results in three of four
program criteria areas: environmental management system (EMS) implementation, public
interaction, and compliance. This point is misleading. It assumes that these criteria have a direct
cause and effect relationship with environmental results. In fact, they are criteria facilities must
meet in order to be accepted into Performance Track. The program analyzes the actual
environmental results of its members through the fourth criterion – continuous improvement and
the associated performance goals. It would not make sense to use the other three program
criteria as a proxy for actual environmental results.




                                                32

OIG Response:
In its comments, EPA says, “If [members] do not submit their [progress] reports, they are removed from
the program.” We found that this was not true in all cases. We pointed out these instances to
Performance Track, and they promptly corrected the instances we found.

EPA also says, “It would not make sense to use the other three program criteria as a proxy for actual
environmental results.” To clarify, the implication of logic modeling is not to show that each aspect of the
program has a direct effect on environmental outcomes, but rather to show how each aspect of the
program should be logically connected to program results.




        As part of their commitment to continuous improvement, members typically set four
environmental goals (small facilities set two). To date, Performance Track members have
collectively made more than 1,500 commitments to benefit the environment. They have reduced
their water use by 3.5 billion gallons, greenhouse gas emissions by 97,000 metric tons of carbon
dioxide equivalent, nitrogen oxide emissions by 6,000 tons, sulfur oxide emissions by 17,000
tons, hazardous waste generation by 133,000 tons, and conserved more than 14,000 acres of
land.

        The Draft Evaluation Report notes that its sample of 40 members achieved a 16-percent
average level of actual environmental improvement during their three-year membership term.
The average level of actual improvement varies by environmental indicator. For example, for
the entire membership, the average level of actual energy use reduction is about eight percent
while the average level of hazardous materials use reduction is about 40 percent. We are
including a graph below that demonstrates the level of environmental improvement by members
who completed their three-year term of participation in 2003, 2004, and 2005. The graph
presents both the actual, absolute percent-improvement in each category and the normalized
percent-improvement. Normalized improvements take into account changes in production or
other activity levels at the facility.




                                                     33

                          Member 3-Year Performance: 2003 - 2005

Non-Hazardous Materials Use




    Hazardous Materials Use




      Non-Hazardous Waste



                                                                                             Normalized
           VOC Reductions
                                                                                             Actual



                 Water Use




          Hazardous Waste




                Energy Use

                          0.0%   10.0%       20.0%     30.0%         40.0%   50.0%   60.0%

                                         Percent Improvement Over Baseline

           In addition, when examining all Performance Track members’ results that completed
   their three-year term of participation in 2005, we found that members achieved 105 percent of
   their aggregate actual energy use reduction goal; 96 percent of their aggregate water use
   reduction goal; and 135 percent of their aggregate hazardous waste reduction goal.



   OIG Response:

   We assessed the program results information EPA presents in this section in our evaluation. We
   found that 2 of 30 members met all of their commitments and that sampled members made an
   average of 16 percent improvement (low of 57 percent decline below baseline, high of 100 percent
   improvement, and median of 11 percent improvement). The aggregate program data the program
   presents above indicate that stricter program standards for achieving commitments could enable
   Performance Track to achieve results far exceeding those achieved to date by weeding out
   members that do not achieve their commitments.



   Performance Track Set Ambitious GPRA Targets

           Just as Performance Track expects continuous improvement and transparency from our
   members, we also anticipated that setting and achieving our own internal GPRA targets would be
   a learning process. Because Performance Track was launched in 2000, we do not have much
   historical data to analyze, making it difficult to accurately forecast projections on how members
   might perform in the future. Variables such as facility size and more than 30 possible


                                                               34

environmental goals from which members could choose also make it difficult to project future
member results. It is important to highlight that although Performance Track did not achieve all
of the aggressive GPRA targets it set for itself in Fiscal Year 2005, all progress made was
voluntary, beyond-compliance, and benefited the nation’s air, water, and land. Additionally, in
Fiscal Year 2006, members collectively made environmental improvements in all six regulated
and unregulated areas: water use, energy use, material use, solid waste generation, discharges to
water, and air releases.

        In its discussion of the GPRA targets, the Draft Evaluation Report states that only one of
the six conditions improved when in fact, Performance Track members made beyond-compliance
improvements for three of the six targets for Fiscal Year 2005. The Draft Evaluation Report also
states that material use increased for Fiscal Years 2003, 2004, and 2005, and energy use
increased in Fiscal Years 2004 and 2005, when in fact, members’ material use decreased in 2003
and their energy use decreased in 2003 and 2004.

OIG Response:
In its response, EPA points out differences in performance reporting data. For Fiscal Year 2005, we
present data showing that the program achieved one of six targets. Both the draft and final reports
recognize that the program made progress in three of six targets; overall, it did not achieve four of six
targets. For Fiscal Year 2006, we replaced preliminary data received from the program during the
evaluation with finalized data presented in EPA’s Fiscal Year 2006 Annual Performance Report, which
is now publicly available. As a result, we show that the program met three of six targets in Fiscal Year
2006.




Performance Track’s Analysis of Compliance Information

        When they apply to the program, Performance Track members undergo a thorough
compliance screening review, which includes an assessment of information housed in EPA
databases, consultation with regional offices, state environmental officials, and the U.S.
Department of Justice. Performance Track adheres to compliance screening guidelines that were
developed for all EPA partnership programs in collaboration with EPA’s Office of Enforcement
and Compliance Assurance (OECA). We also assess the compliance status of members on a
regular basis while they are in the program and when they re-apply for membership at the end of
three years.

        Performance Track members are required to maintain a record of sustained compliance.
It is important to note, however, that Performance Track’s acceptance criteria do not require a
record with zero violations. Consistent with Agency compliance screening guidelines for
partnership programs, EPA has the discretion to allow facilities into the program if screening
reveals recent enforcement activity, so long as their overall compliance record is strong, any
issues were addressed quickly and responsibly, EPA and state enforcement officials agree that
the applicant is a strong environmental performer, and the facility meets the other criteria for
membership. For Performance Track, this includes allowing up to two significant violations in a
three-year period.



                                                     35

         The Draft Evaluation Report’s analysis of the compliance history of all Performance
Track facilities found that 73 percent had no reported non-compliance, certainly an indication
that members in general are maintaining strong compliance records. Indeed, based on a more in-
depth analysis of 40 facilities, the Draft Evaluation Report concludes that most of the sample
facilities outperform their peers with respect to their compliance records.

         In its analysis of all Performance Track facilities, the Draft Evaluation Report found that
four percent had significant violations reported in their records. As stated above, in reviewing
the compliance history of applicants, we use the compliance databases as a starting point. After
verifying these data, we consult with regional and state staff, and we allow for up to two
significant violations in the past three years. Therefore, the Draft Evaluation Report’s
implication that these facilities may not have qualified for membership is incorrect. All of these
facilities did pass our compliance screening criteria at the time of application.

         The Draft Evaluation Report presents misleading information about a Performance Track
facility that was subject to civil penalties and associated compliance cots. The fine and
compliance costs attributed to the Performance Track facility by the Draft Evaluation Report
were, in fact, the total costs for seven facilities included in this enforcement action. The
Performance Track facility continues to meet the program’s compliance criteria.



OIG Response:
In responding to drafts for this evaluation, EPA parsed the details of our analyses to determine if flaws
and inaccuracies in the databases we used could account for our results. However, we used publicly
available data, which showed what information the public can access to determine the success of this
program. The burden of proving that applicants are “true” leaders and disproving any data
discrepancies in EPA’s databases should fall upon the applicants in this program, not on EPA’s staff.

In addition, as shown in our Scope and Methodology, we verified compliance data for the Performance
Track members in our sample by checking with EPA regional data stewards. We did not verify
compliance data for the sectors with which we compared Performance Track members. For this reason,
it is our opinion that Performance Track members’ data used in this evaluation have a higher level of
accuracy than the data for sector averages.

In response to EPA’s comments, we verified the penalty referenced herein with OECA and changed the
report to indicate that this was a corporate and not a facility penalty.


Performance Track’s Assessment of Toxics Release Inventory Information

        The Draft Evaluation Report concluded from its sample of 40 Performance Track
members that most members outperform their sectors for toxic releases. In the spring of 2006,
EPA began evaluating the TRI releases of new applicants and renewing members. When
Performance Track has researched apparent TRI increases in the past, it has often been the case
that the apparent increases were a product of changes in reporting methodology or changes in
production levels. A pattern of releases that suggests an actual deterioration in performance
would cause us to re-evaluate that facility’s qualifications.



                                                     36

        Moreover, one of the four facilities in the Inspector General’s sample reported an
increase of over 1.5 million pounds in 2004. However, when EPA inquired about the reason for
the increase, the facility stated that it was a reporting error, and that the 2004 releases, after
correction, would be in line with the previous year. This would significantly decrease the
average toxic release increase cited by the Draft Evaluation Report.


OIG Response:
In its response, EPA says that there was a 2004 TRI reporting error included in our analysis. We used
2003 TRI data in our analysis. As stated in our scope and methodology, we conducted our fieldwork
using data available for August through November 2006. See response to compliance comments in
previous section. The same general comments apply to TRI data, which are publicly available. In
addition, EPA has a formal correction process that allows facilities to report inaccurate TRI data.


Performance Track Concurs with Draft Evaluation Report’s Recommendations

3-1. 	Confirm and Clarify National Environmental Performance Track Mission and Vision.

      Concur. We will integrate our planning documents and update our vision statement. We
      have adopted a statement of core purpose and core values as a basis for integration.

3-2. 	Clearly communicate the defined program objective to EPA, Performance Track staff, the
      public, non-governmental organizations, and the regulated community, ensuring that each
      group understands the program objective.

      Concur. We are reviewing our public materials and ensuring that core objectives are
      communicated clearly and consistently to these audiences.

3-3. 	 Refine, prioritize, and periodically revisit a program logic model or business model for
       demonstrating how Performance Track will achieve its goals.

        Concur. Our original logic model was developed in 2005, updated and expanded in
        2006, and periodically will be revised and updated.

3-4. 	 Design a comprehensive strategic program plan to connect activities with goals and to
       encourage staff and management to focus on program goals and member commitments.

        Concur. We plan to refine our statement of program goals and to develop a more explicit
        set of linkages between those goals, member commitments, and program results.

3-5. 	 Based on key program design elements and outcomes, develop a suite of performance
       measures so that program staff and management can easily track progress. Based on how
       the program design is modified, develop and report on the following:

        3-5.1 	 Four program criteria to measure how well members meet and continue to meet
                the standards set for entry.


                                                  37

              Concur. We will continue to use the Annual Performance Reports, site visits with
              a sample of members annually, summaries presented in the annual Progress
              Report, renewal applications, and regular screening of members against the
              compliance criteria to monitor whether members continue to meet the eligibility
              criteria.

       3-5.2 	 Outcome measures that describe if/how the program members contribute to
               outcomes such as innovation and collaboration, and that show if the program is
               leading toward performance-based changes in environmental protection.

              Concur. This is a challenging issue that is at the cutting edge of program
              evaluation. We are consulting with experts for advice and are testing survey
              approaches to obtain better information from members on these measurement
              issues.

4-1. 	 Maintain a centralized database for compliance screening information and decisions on
       Performance Track members.

       Concur. Performance Track began using a centralized database for compliance
       screening in January of 2006, and we continue to enhance the program’s database.

4-2. 	 Encourage member facilities to set and achieve commitments so that the public has a
       clear idea of what members actually will achieve.




                                              38

                                                                                               Appendix B

                     Detailed Scope and Methodology
We conducted this evaluation from June through October 2006. We performed our
evaluation in accordance with Government Auditing Standards, issued by the Comptroller
General of the United States.

We drew criteria from the Government Performance and Results Act, the Office of
Management and Budget (OMB) Program Assessment Rating Tool (PART), EPA
program management guidance, and meetings with Performance Track management.

We examined management controls and program performance measurement as they related to
our objectives.

We used Microsoft Excel for all calculations, figures, and graphs.

Scope Limitations
For this evaluation, we did not address
•       State programs
•       Member characteristics
•       Incentives—quality, implementation, or potential impacts
•       Public outreach aspects
•       Quality of EMSs at facilities
•       Performance Track site visits

We also did not assess the validity of commitments or baselines, nor did we compare
commitments with sectors to determine if facilities set commitments related to their most
important environmental impacts. Performance Track staff told us that they worked with
facilities to encourage setting commitments related to Environmental Management System
“significant aspects.”

We could not compare Performance Track member progress with nonmember progress because
there is no reporting requirement for nonregulatory issues. Therefore, we could not determine if
facilities associated with Performance Track were more likely to make improvements.

Sample Selection
On August 3, 2006, we compiled a list of the 385 Performance Track members at that time using
the Performance Track Online database. 37 We eliminated 1 of the 17 sectors from our sample,
“arts, recreation, and entertainment,” because it did not have as many compliance requirements

37
  The Performance Track program accepted new members during the course of our evaluation. Membership also
fluctuates regularly based on withdrawals. Because Performance Track added a new class of members in October,
as of November 3, 2006, the program had 417 members.


                                                      39

as the others, and we planned to compare compliance. This left 357 members to sample from in
16 sectors, and led to selecting a sample including 40 members. The sample represents 11
percent of members and gives a 95 percent confidence and a 15 percent margin of error. Our
randomly selected sample covered 14 sectors; it did not include “machinery equipment” or
“textile products.”

                      Distribution of OIG Performance Track Sample by Sector

                                                          POPULATION         SAMPLE
                                                             #              #
         sector                                          members   %     members    %
    1    chemical products                                  48    13.4      6      15.0
    2    electronic and electrical equipment                49    13.7      7      17.5
    3    energy, utilities, and sanitary service            14    3.9       1       2.5
    4    machinery equipment                                 9     2.5      0       0.0
    5    medical equipment and supplies                    23      6.4         2      5.0
    6    metal products                                    20      5.6         2      5.0
    7    mining and construction                            6      1.7         1      2.5
    8
         miscellaneous manufacturing                        9      2.5         2      5.0
    9
         miscellaneous nonmanufacturing                    32      9.0         2      5.0
    10
         pharmaceutical products                           30      8.4         5     12.5
    11
         research and education                            19      5.3         3      7.5
    12   rubber and plastics                               26      7.3         3      7.5
    13   textile products                                   5      1.4         0      0.0
    14
         transportation equipment and supplies             28      7.8         4     10.0
    15
         wholesale retail and shipping                      6      1.7         1      2.5
    16
         wood products, paper, and printing                33     9.2          1      2.5
         Total                                             357    100          40     100

    Source: OIG and Performance Track database.


Database Verification
Performance Track staff provided us with access to the Performance Track databases so that we
could retrieve information about commitments and accomplishments for individual facilities.
We compiled information on the accuracy of the Performance Track database, and determined
that it would provide sufficient accuracy for our evaluation.

OECA staff provided us with access and advice for using EPA's Online Tracking Information
System (OTIS) to retrieve compliance data for sectors and for individual facilities. They
recommended that we validate facility data with regional data stewards to ensure that they were
accurate for our analysis. Because we could not check data for all members of sectors used for
comparison, our data may demonstrate accuracy bias in favor of sample members. We retrieved
data on sample facilities from OTIS between September 25 and 29, 2006, and asked each region



                                                   40

to validate the results from the data pull. Based on their responses, we modified two of our
facility records, in both cases we reduced “quarters of noncompliance.”

Sample Analysis
We chose two EPA databases that provide environmental information on facility and industrial
sector bases: OTIS, available to the public through the ECHO database; and the Toxic Release
Inventory database (TRI), also available to the public. By comparing results for a Performance
Track facility with the average results for its sector, we could demonstrate if a facility led or fell
behind its sector average for compliance and toxic releases.38

We looked to compliance records to show if Performance Track facilities outperform their
sectors for regulatory compliance. Performance Track facilities vary widely from concession
stands to a petroleum refinery. EPA designed the program so that all types of facilities could
become members. In assessing facility compliance, we used average sector compliance as a
benchmark so that we did not compare across different facility types.

Toxic releases provide the public with information about facilities’ toxic emissions. While not
illegal, toxic releases indicate environmental risk at a facility. Coglianese and Nash used toxic
release data in assessing Performance Track facilities. They found that more than half of active
members had a high relative risk for pounds of toxic releases.39 We compared members’
releases with those of their sectors, on average, for 2003, the most recent data year available.
We also compared members’ toxic releases from year to year, marking their entrance to the
Performance Track program to determine if Performance Track membership influenced toxic
releases. 40

To collect and analyze facility data in our sample, each facility was accessed in the Performance
Track Online database by member identification number, and each year's Annual Performance
Report was used to document the following information:

     •   Commitment                                      •   Actual measurements
     •   Cycle (one or two)                              •   Normalized measurements
     •   Baseline year                                   •   Normalizing factors (if applicable)
     •   Measurement units                               •   Beyond compliance index = (baseline actual -
     •   Reporting year                                      reporting year actual)/(baseline actual)
     •   Baseline                                        •   Commitment achievement = third year of
     •   Performance commitment/target                       reporting actual - performance commitment
38
   Our analysis did not account for the number of inspections per facility. A Performance Track assessment
indicated that member facilities were inspected slightly more frequently than nonmember facilities. Our analysis
showed that most members in our sample (28 of 40) had been inspected more recently, 5 sample members had never
been inspected, and in 7 cases, sectors, on average, were inspected more frequently than member facilities. This
difference did not lead to a difference in compliance information for these facilities.
39
   Coglianese and Nash, p. 16.
40
   We collected information on toxic releases from EPA’s Toxics Release Inventory, which could only provide
sector-wide data for 2003. We compiled current sector compliance data using EPA’s Online Tracking Information
System. EPA’s Office of Enforcement and Compliance Assurance maintains this database monthly. These
enforcement data were current as of September 1, 2006.


                                                      41

If there was more than one iteration of the same year's reporting, we used the most recent report
(e.g., third of three reports).

The following items from the facility's most recent Annual Performance Report:

   •	   Member ID                                      •       Parent company
   •	   Facility name                                  •       NAICS code
   •	   Facility type                                  •       ISO 14001 (yes/no)
   •	   Facility size (as broken down by 

        Performance Track) 


To collect and summarize enforcement and compliance data for individual facilities (sample
members), we entered the facility name into the "multimedia" search in OTIS. We collected the
following information from OTIS (time frames represent the period of data reported in OTIS):

   •	 Days since last inspection                           •    Formal enforcement actions in past 5
   •	 Number of statutes the facility is subject                years 

      to (including minor sources)                         •    Penalties in past 5 years 

   •	 Quarters of noncompliance in past 3                  •    TRI releases for 2003
      years                                                •    Change in TRI releases for 1996
   •	 Current significant violations                            through 2004 (period of data
   •	 Number of onsite inspections in past 5                    provided in OTIS)
      years                                                •    Change in the number of chemicals
   •	 Number of informal enforcement actions                    reported from 1996 through 2004
      (notices of violation) in past 5 years               •    TRI releases for 1996 through 2004

To summarize enforcement and compliance data for sectors, we entered NAICS codes into the
multimedia search in OTIS. For facilities listing more than one NAICS code, we entered all
NAICS codes present to compile a composite sector. We calculated the average number of
regulations per facility by dividing the total number of entries by the number of unique facility
IDs. We calculated the average days since an inspection by dividing the column for “days since
last inspection” by the number of facilities. We used this same method to calculate the averages
for the following:

   •	 Quarters of noncompliance                        •       Formal enforcement actions
   •	 Current SNC                                      •       Penalties.
   •	 Informal enforcement actions

For 2003 TRI releases, we also calculated the average for facilities that reported in that year and
used this average for comparison with sample facilities.

We calculated a TRI ratio to compare facilities with their industrial sectors by dividing the
facility's 2003 TRI emissions by the average TRI emissions for their composite sector.

We calculated commitment achievement and percent improvement over baselines for all sample
facilities. The program moved to a “normalizing” scheme, by which facilities could choose a


                                                 42

unit of operations (as in unit of production) for adjusting their data reports. Each facility could
choose a different factor for each commitment. The effect was to obscure actual pollution trend
data, so we did not use “normalized” data for our analysis, with one exception: when a facility
set a goal based on a “normalization factor,” we used normalized numbers to determine if the
facility met its goal.

Overall Performance Track Members Analysis

To determine how Performance Track members, at large, performed on regulatory compliance,
we used the OTIS database to select all Performance Track facilities on October 18, 2006. This
search provided 500 facilities. We calculated the average days since an inspection by dividing
the column for “days since last inspection” by the number of facilities, and noted how many
facilities had never received an inspection. We used this same method to calculate the averages
for the following:

   •   Quarters of noncompliance                       •   Formal enforcement actions
   •   Current SNC                                     •   Penalties
   •   Informal enforcement actions                    •   TRI releases for 2003

We subsequently compared this list of facilities with the list of Performance Track facilities in
the Performance Track membership database on the same date. We compared facility names,
addresses, cities, and zip codes to match OTIS-listed facilities with Performance Track member
database facilities to determine what facilities composed the discrepancy between the databases.




                                                 43

                                                                                                Appendix C

                           Performance Track Criteria
                  1.                                                            2. 

   Environmental Management System                                       Public Outreach 


  The facility must adopt and implement an                  The facility must conduct public outreach and
  environmental management system (EMS) that                performance reporting:
  includes the elements specified:                          1. Identify and respond to community concerns
  1. 	 Written environmental policy                         2. Inform the community of important matters
  2. 	 Written environmental plan                           3. Report on facility EMS and performance
  3. 	 Implementation and operation plans                       commitments
  4. 	 Checking and corrective action
  5. M 	 anagement review



                     3. 	                                                    4.
           Regulatory Compliance 	                           Environmental Performance Beyond
                                                                       Compliance
  The facility must demonstrate a record of
  sustained compliance with environmental                   The facility must demonstrate specific past
  requirements; prohibitions for                            environmental achievements:
  1. 	 Environmentally-related criminal conviction          1. Past achievements (small facilities 1, large
       or plea within past 5 years                              facilities 2) (a "small facility" is one with
  2. 	 Environmentally-related criminal conviction              fewer than 50 employees)
       or plea for an employee within past 5 years          2. Future commitments (small facilities 2, larger
  3. 	 Ongoing criminal investigation/prosecution               facilities 4)
       of corporation, corporate officer, or                3. Challenge commitments (count for two
       employee at the same facility for violations             "future commitments"
       of environmental law                                     a. Region I: reducing greenhouse gas
  4. 	 Three or more significant violations at the                   emissions by 5 percent
       facility in the past 3 years                             b. Region II: reducing energy use or mobile
  5. 	 Unresolved, unaddressed Significant Non-                      source air emissions by 10 percent or
       Compliance (SNC) or Significant Violations                    reducing non-mobile source air
       (SV) at the facility                                          emissions by 20 percent
  6. 	 Planned but not yet filed judicial or                    c. Region VI: reduce their Nitrogen Oxide
       administrative action at the facility.                        (NOx) emissions or Volatile Organic
  7. 	 Ongoing EPA- or State-initiated litigation at                 Compound (VOC) releases by 15
       the facility                                                  percent
  8. 	 Situation where a facility is not in                 4. Membership in other EPA partnership
       compliance with the schedule and terms of                programs helps the applicant
       an order or decree
  9. 	 Significant noncompliance overview specific
       to the related program office (Air, RCRA,
       Water)


Source: Performance Track document, Performance Track Program Guide.




                                                       44
                                                                                      Appendix D

      Incentives and Rewards to Participation
Incentive                                 Description
Low Priority for Routine Inspections      Performance Track facilities are deemed a low
                                          priority for routine inspections by EPA.
Extended Hazardous Waste                  This incentive allows large quantity generators
Accumulation Time (Resource               of hazardous waste who are Performance Track
Conservation and Recovery Act             members up to 180 days, and in some cases
[RCRA] 180-Day Incentive)                 270 days, to accumulate their hazardous waste
                                          without a RCRA permit or interim status.
Reduced Reporting Frequency for Air       This incentive reduces and simplifies the
Sources (Maximum Achievable Control       frequency of reports required under the MACT
Technology [MACT] Reporting               provisions of the Clean Air Act such that semi
Incentive)                                annual reports may be submitted annually.
Water Incentives                          EPA encourages States to provide more
                                          favorable terms to Performance Track facilities
                                          in their Clean Water State Revolving Fund
                                          programs.
Reward                                    Description
EPA Recognition                           Press releases, letters to elected officials, trade
                                          journal articles, and other EPA-generated
                                          recognition for participation.
Networking                                With other Performance Track facilities, though
                                          conferences, regular conference calls, facility
                                          events
Green Investing                           Four investment firms used Performance Track
                                          membership as an indicator of corporate
                                          responsibility.

  Source: EPA Performance Track Website, www.epa.gov/performancetrack/benefits/index.htm.




                                            45

                                                                                                 Appendix E


                        Performance Track Commitments*
                                                                                                   Times selected
                                                                                                     by sample
           Commitment Category                                    Indicator                           facilities
1    Waste                                 Waste, nonhazardous                                           42
2    Energy Use                            Total (nontransportation) energy use by fuel type             37
3    Water Use                             Total water used                                              34
4                                          Hazardous waste generation, broken down by
     Waste                                 management method (total or specific)                        29
5    Material Use                          Materials used (total or specific)                           16
6    Air Emissions                         Total Greenhouse Gases                                       12
7    Material Procurement                  Recycled content (total or specific)                         10
8    Material Use                          Hazardous materials used (total or specific)                 10
9    Land and Habitat                      Land and habitat conservation and restoration                10
10                                         Volatile Organic Compounds (VOCs, total or
     Air Emissions                         specific)                                                     8
11   Air Emissions                         Nitrogen Oxides (NOx)                                         7
12   Air Emissions                         Air toxics (Total or specific)                                5
13   Discharges to Water                   Biological Oxygen Demand (BOD)                                5
14   Material Procurement                  Hazardous/toxic components (total or specific)                3
15   Accidental Releases                   Accidental Releases                                           3
16   Suppliers' Environmental
     Performance                           Packaging materials                                           2
17   Energy Use                            Transportation energy use (total or specific)                 2
18   Discharges to Water                   Toxics (total or specific)                                    2
19                                         Chemical Oxygen Demand (COD), Biological
                                           Oxygen Demand (BOD), and Total Suspended
     Discharges to Water                   Solids (TSS)                                                  1
20   Material Use                          Ozone depleting substances used (total or specific)           1
21   Material Use                          Total packaging materials used                                1
22   Air Emissions                         Sulfur Oxides (SOx)                                           1
23   Air Emissions                         Odor                                                          1
24   Discharges to Water                   Total suspended solids (TSS)                                  1
25   Noise                                 Noise                                                         1
26   Selective Catalytic Reduction (SCR)
     Catalyst                                                                                            1
27   Air Emissions                         Carbon Oxides (CO)                                            0




                                                       46

28   Suppliers' Environmental                Any relevant indicators from the Inputs or
     Performance                             Nonproduct Outputs stages                                       0
29   Suppliers' Environmental
     Performance                             Hazardous materials                                             0
30   Suppliers' Environmental
     Performance                             Land and habitat conservation                                   0
31   Land and Habitat                        Community land revitalization                                   0
32                                           Particulate Matter Smaller than 2.5 Micrometers in
     Air Emissions                           Diameter (PM 2.5)                                               0
33   Air Emissions                           Particulate Matter (nominally 10m and less) (PM10)              0
34   Air Emissions                           Particulate Matter (PM)                                         0
35   Air Emissions                           Ozone                                                           0
36   Air Emissions                           Radiation                                                       0
37   Air Emissions                           Dust                                                            0
38   Discharges to Water                     Chemical Oxygen Demand (COD)                                    0
39   Discharges to Water                     Nutrients (total or specific)                                   0
40   Discharges to Water                     Sediment from runoff                                            0
41   Discharges to Water                     Pathogens (total or specific)                                   0
42   Vibration                               Vibration                                                       0
43   Land and Habitat                        Remediation                                                     0
44   Products                                Expected lifetime energy use (total or specific)                0
45   Products                                Expected lifetime water use (total or specific)                 0
46                                           Expected lifetime waste (to air, water, land) from
     Products                                product use (total or specific)                                 0
47                                           Waste to air, water, land from disposal or recovery
     Products                                (total or specific)                                          0
                     Total                   * Our list differs slightly from the Performance Track      245
                                             Online list, which reflects only current commitments.    commitments
                                             Our sample represents facilities that set
                                             commitments that are no longer acceptable.
                   Average                                                                            3 commitments
                                                                                                      per facility per
                                                                                                           cycle

      Source: EPA Performance Track Online Database.




                                                          47

                                                                                                                                                                                 Appendix F
                                                          Detailed Program Logic Model
    INPUTS                       ACTIVITIES*                        OUTPUTS*                        SHORT TERM OUTCOMES                         INTERMEDIATE OUTCOMES          EPA END
                                                                                                                                                                               OUTCOMES (Agency
                                                                                                                                                                               Goals)
                   Membership                             More members & corporate             1. Increased membership                          Reduced environmental
Extramural         1. Publicize program & members (#      leaders                              and expanded ownership                           footprint of members &
budget: $2.3       publicity events)                                                           of program                                       potential members
million/year#      2. Member recruitment (#
                   applications)                          Ensure high quality members
Staff: 27-29 FTE   3. Application & renewal review
                   (facility & corporate leaders) (#
                                                          Increased number of member
19 headquarters    reviews)
                                                          commitments & env results
7-10 Regions       4. Monitor Member Compliance (#
                   members in compliance, # out,
Members:           Resolution)
                                                                                                                                                  Create conditions
417 as of                                                                                                    2. Measurable member
                                                          Recog. of env. leadership                                                               under which innovative
10/12/06                                                                                                     environmental                        solutions can be
                   Recognition                                                                               improvements                         achieved
                   Provide Recognition to members
                   (#events, awards, certif, etc.)           Members motivated to
                                                             improve environment

                   Annual Performance Reporting &
                   Review
                   1. Member results analysis &
                                                          Publicly available member
                   reporting                                                                                                                                                      #EPA Goal 5.4:
                                                          environmental results
                   Annual report (# correct APRs rec’d)                                                                                                                           Improve
                   2. Maintain env. reporting framework                                                                                                                           Environmental
                                                          Increase firms using PT                                                                   Increased collaboration       Performance
                                                          membership for socially-                                                                  between EPA and high-         Through Pollution
                   Work with stakeholders (# mtgs, #      responsible investing                                                                     performing companies          Prevention and
                   stakeholder suggests adopted)                                                                                                    and other stakeholders        Innovation

                                                          Active partnerships with NGOs
                                                                                                              3. Membership yields
                                                                                                              greater business value
                                                                                                                                                      Public awareness of
                   Incentives Development &               More meaningful Incentives                                                                  value of PT Brand
                   Improvement (# incentives, #           are available to more
                   members using each)

                                                          Incorporation into Agency/                                                                More businesses
                                                          State regulations & guidance                                                              qualify for PT by
                                                                                                                                                    improving their env.        Enable EPA and State
                   Collaboration with EPA Program                                                                                                                               environmental
                   Offices                                Joint initiatives (chall. Commts,                                                                                     agencies to achieve
                   -Incorporate PT in PPA / NPM           ambient monitoring, etc.)                                                                                             better environmental


                                                          Increased # of state MOAs &
                                                              grants
                   Outreach to & work w/ States
                                                                                                                                                    EPA and state agencies
                                                                                                                         4. States & EPA have       become more dynamic &
                                                          Increased # state programs similar                             institutionalized PT       flexible in solving env.
                                                                                                                                                                                Improved human health
                                                              to PT                                                                                 problems
                                                                                                                                                                                and environment
                                                                                                                                                                                (ecosystems)
                   Site visits
                                                          Feedback from members                 5. Well-managed &
                                                                                                effective program
                   Member survey & PTrack Hotline



                                                                                                   48
                                                                                                                                                     Appendix G
                                                           Data Analysis Results
Figure G.1: Commitment achievement for Performance Track facilities.
                                                              Commitment Achievement by Facility

                  30
                  29
                  28
                  27
                  26
                  25
                  24
                  23
                  22
                  21
                  20
                  19
  sample member




                  18
                  17
                  16
                  15
                  14
                  13
                  12
                  11
                  10
                   9
                   8
                   7
                   6
                   5
                   4
                   3
                   2
                   1

                   0.00                            0.25                                    0.50                               0.75                    1.00
                                                                                     achievement ratio


Figure G.2: Commitments achieved at cycle completion for Performance Track facilities.
                                                                  Commitment Achievement


                                                Air toxics (Total or specific)


                                                      COD, BOD, and TSS


                                                    Total suspended solids


                                                                         SOx


                                                     Waste, nonhazardous


                                                           NOx

 Hazardous waste generation, broken down by management method

                       (Total or specific)

                                               Total water used


                                          Materials used (Total or specific)


                                                   VOCs (Total or specific)


                          Total (non-transportation) energy use by fuel type


                                                                 Total GHGs


                               Hazardous materials used (Total or specific)


                                                       Accidental Releases


                                                                        BOD


                                               Land and habitat restoration


                                        Recycled content (Total or specific)


                                                   Toxics (Total or specific)


                                                                             0.000                0.250         0.500                0.750   1.000
                                                                                                          achievement ratio




                                                                                              49

     Figure G.3: Change in materials use for Performance Track facilities for program years 1-5, 2001 through
     2005 results (tons).
                    150000




                    100000




                     50000




                         0
                                 1               2               3              4             5




                     -50000




                    -100000




                    -150000




     Figure G.4: Comparative compliance for sample facilities that did not outperform their sectors.

                                   Quarters of            Significant                                    Enforcement
                                 noncompliance             violations          Notices of violation        actions
                               Sample     Sector       Sample      Sector      Sample      Sector     Sample     Sector
     Primary Sector            Member     average      Member      average     Member      average    Member     average
     Miscellaneous
1    Manufacturing             0.00          1.17       0.00          0.02      1.00       0.28       0.00      0.12
2    Chemical Products         0.00          4.90       0.00          0.23      0.00       1.35       1.00      0.76
     Wholesale, Retail, and
3    Shipping                  0.00          3.10       0.00          0.09      1.00       0.18       0.00      0.18
     Electronic and Electrical
4    Equipment                 0.00          0.96       0.00          0.02      0.00       0.29       1.00      0.08
     Research and
5    Education                 0.00          1.00       0.00          0.04      1.00       0.33       0.00      0.14
     Pharmaceutical
6    Products                  4.00          2.17       0.00          0.08      1.00       0.59       0.00      0.34
     Pharmaceutical
7    Products                  6.00          2.26       0.00          0.08      1.00       0.58       0.00      0.34
     Transportation
     Equipment and
8    Supplies                  9.00          1.74       0.00          0.13      1.00       0.59       0.00      0.37
     Transportation
     Equipment and
9    Supplies                  12.00         2.30       0.00          0.12      0.00       0.60       0.00      0.30
     Rubber and Plastics
10   Products                  1.00          3.00       0.00          0.13      2.00       0.80       0.00      0.41
11   Chemical Products         1.00          2.90       0.00          0.12      4.00       0.85       0.00      0.48
     Wood Products, Paper,
12   and Printing              4.00          3.70       0.00          0.14      4.00       1.04       3.00      0.67
     Research and
13   Education                 9.00          4.45       0.00          0.39      4.00       1.32       0.00      0.41
     Source for Appendix G: Office of the Inspector General, data from TRI and OTIS.




                                                            50
                                                                            Appendix H

                                    Distribution
Administrator
Deputy Administrator
Audit Followup Coordinator, Office of the Administrator
Agency Followup Official, Chief Financial Officer
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting General Counsel
Acting Inspector General




                                             51

